                                                                                OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 5) Version 5.0a
                  Reporting OIG: Department of Transportation - OIG
              Month Ending Date: 12/31/2010

                                                                Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau           Recovery Act TAFS      Award Type       US Indicator       Total Obligations    Total Gross         Direct or             Ordering TAFS
No.                                                                                                                    Outlays          Reimbursable
      Department of Transportation -(69-0131 2009 \             Other            Y - US            $5,151,401         $4,924,584
      OIG                           2013) Transportation -
                                    OIG - Recovery Act
  1                                                                                                                                   Direct              n/a
      Department of Transportation -(69-0131 2009 \          Contract and        Y - US             $325,000           $140,000
      OIG                           2013) Transportation -     Orders
                                    OIG - Recovery Act
  2                                                                                                                                   Direct              n/a
  3
  4
  5
  6
  7
  8

                                                                              Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau             FY 2009 Non-         Total FY 2009    Total FY 2009   FY 2010 Non-Recovery   Total FY 2010      Total FY 2010     FY 2011 Non-Recovery    Total FY 2011    Total FY 2011
No.                                   Recovery Act TAFS       Obligations     Gross Outlays         Act TAFS          Obligations       Gross Outlays           Act TAFS           Obligations     Gross Outlays
    Department of Transportation -   (69-0130 2009)              $1,569,106       $1,569,106 (69-0130 2010)              $5,157,796            $5,157,796 (69-0130 2011)                      $0               $0
  1 OIG                              Transportation - OIG                                    Transportation - OIG                                         Transportation - OIG
  2
  3
  4
  5
  6
  7
  8




                                                                                                                                                                         DOT OIG Monthly Report.xls Page 1
                                                                                                               OIG Recovery Act Monthly Report



                                                            Monthly Update Report Data (sheet 2 of 5) Version 5.0a
                                                                     Reporting OIG: Department of Transportation - OIG

                                                              Month Ending Date: 12/31/2010


                                                                                                                                 Fiscal Year 2009

                                                                                             Monetary Results -Investigations              Monetary Results - Audits, Inspections, Reviews*


                                                                                               Recoveries (FY 09):               $0.00          Questioned Costs (FY 09):              $0.00



                                                                                      Forfeitures/Seizures (FY 09):              $0.00         Unsupported Costs (FY 09):              $0.00



                                                                                                                                         Recommendations for Better Use
                                                                                        Estimated Savings (FY 09):               $0.00                                                 $0.00
                                                                                                                                                      of Funds (FY 09):




                                                                                                                                 Fiscal Year 2010

                                                                                             Monetary Results -Investigations              Monetary Results - Audits, Inspections, Reviews*


                                                                                               Recoveries (FY 10):               $0.00          Questioned Costs (FY 10):              $0.00



                                                                                      Forfeitures/Seizures (FY 10):              $0.00         Unsupported Costs (FY 10):              $0.00



                                                                                                                                         Recommendations for Better Use
                                                                                        Estimated Savings (FY 10):               $0.00                                                 $0.00
                                                                                                                                                      of Funds (FY 10):


                                                                                                                                 Fiscal Year 2011

                                                                                             Monetary Results -Investigations              Monetary Results - Audits, Inspections, Reviews*


                                                                                               Recoveries (FY 11):               $0.00          Questioned Costs (FY 11):              $0.00



                                                                                      Forfeitures/Seizures (FY 11):              $0.00         Unsupported Costs (FY 11):              $0.00



                                                                                                                                         Recommendations for Better Use
                                                                                        Estimated Savings (FY 11):               $0.00                                                 $0.00
                                                                                                                                                      of Funds (FY 11):


                                                                                                                           Cumulative Since 2/17/2009

                                                                                             Monetary Results -Investigations              Monetary Results - Audits, Inspections, Reviews*


                                                                                         Recoveries (cumulative):        $0.00             Questioned Costs (cumulative):      $0.00


                                                                                              Forfeitures/Seizures
                                                                                                                         $0.00            Unsupported Costs (cumulative):      $0.00
                                                                                                     (cumulative):



                                                                                                Estimated Savings                        Recommendations for Better Use
                                                                                                                         $0.00                                                 $0.00
                                                                                                     (cumulative):                               of Funds (cumulative):




* These data include Federal Audits, Inspections, and Reviews only                                                                                                                             DOT OIG Monthly Report.xls Page 1
                                                                                                                OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 3 of 5) Version 5.0a
        Reporting OIG: Department of Transportation - OIG
    Month Ending Date: 12/31/2010

                            FTE Working on Recovery
                                                                                                                                                                      Testimonies:
      Fiscal Year              2009            2010                   2011              Cumulative
       Newly Hired FTE
                               0.77              15.40                 5.61                 21.78                                                           Provided (monthly):       0
         (cumulative):

FTE Funded by Recovery
                               1.54              22.19                15.74                 39.47                                                        Provided (cumulative):       5
 Act Funds (cumulative):

     FTE Not Funded by
    Recovery Act Funds        15.20              40.52                 0.00                 55.72
          (cumulative):


                                                                                                                                                       Audits / Inspections / Evaluations /
              Complaints                                 Whistleblower Reprisal Allegations                             Investigations                                                              Training / Outreach
                                                                                                                                                                     Reviews
             Monthly Data                                          Monthly Data                                         Monthly Data                              Monthly Data                         Monthly Data

                                                                                                                                                                                                    Training Sessions
              Received:         6                                        Received:            0                  Opened (this month):        1            Initiated (this month):     0                                    1
                                                                                                                                                                                                           Provided:

                                                                                                               Active (as of the end of                In Process (as of the end
                                                                         Accepted:            0                                              49                                      13          Individuals Trained:      20
                                                                                                                           the month):                           of the month):
                                                                                                                                                               Completed Final
                                                                                                                                                                                                   Hours of Training
                                                                                                                Closed without Action:       3                  Published Work        0                                    20
                                                                                                                                                                                                          Provided:
                                                                                                                                                                       Products:
                                                                                                                                                                Priority Interim
                                                                                                                                                                                                  Outreach Sessions
                                                                                                                 Prosecution Declined:       2                  Published Work        0                                    0
                                                                                                                                                                                                        Conducted:
                                                                                                                                                                      Products:

                                                                                                              Referred for Alternative                       Unpublished Work
                                                                                                                                             0                                        0
                                                                                                                           Resolution:                              Products*:

                                                                                                                          Convictions,
                                                                                                                   Settlements, Pleas,       0                        QCRs Issued:    0
                                                                                                                           Judgments:

   Cumulative Data Since 2/17/2009                       Cumulative Data Since 2/17/2009                     Cumulative Data Since 2/17/2009            Cumulative Data Since 2/17/2009       Cumulative Data Since 2/17/2009
                                                                                                                                                               Completed Final
                                                                                                                                                                                                    Training Sessions
              Received:        312                                       Received:            4                 Closed without Action:       26                Published Work         9                                   235
                                                                                                                                                                                                           Provided:
                                                                                                                                                                     Products:
                                                                                                                                                                Priority Interim
                                                                         Accepted:            4                  Prosecution Declined:       7                  Published Work        1          Individuals Trained:     16851
                                                                                                                                                                      Products:

                                                                                                              Referred for Alternative                       Unpublished Work                      Hours of Training
                                                                                                                                             7                                        0                                   17109
                                                                                                                           Resolution:                              Products*:                            Provided:

                                                                                                                          Convictions,
                                                                                                                                                                                                  Outreach Sessions
                                                                                                                   Settlements, Pleas,       0                        QCRs Issued:    0                                   157
                                                                                                                                                                                                        Conducted:
                                                                                                                           Judgments:

                                                                                                                    Cumulative Total:        40               Cumulative Total:      10




               *These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.                                                               DOT OIG Monthly Report.xls Page 1
                                                  OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 5) Version 5.0a
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 12/31/2010

       No.                     OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1
        2
        3
        4
        5
        6
        7
        8
        9
       10

       No.                             OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
        1
        2
        3
        4
        5
        6
        7
        8
        9
       10




                                                                                                          DOT OIG Monthly Report.xls Page 1
                                                               OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 5 of 5) Version 5.0a
  Reporting OIG: Department of Transportation -
   Month Ending 12/31/2010

                                                                           TRAINING ACTIVITIES
                                                                                                                                                   Hours of
                                                                                                                       Length of                   Training
                                                     Target                            Training Location   Date of                   Number of                   Cost of
     No.               Type of Training                            Title of Training                                    Training                  Provided
                                                    Audience                              (City, State)    Training                 Participants                 Training
                                                                                                                        (hours)                    (length x
                                                                                                                                                 participants)
       1         Fraud Prevention/Awareness       Mixed         ARRA Fraud Prevention Nashville, TN            1-Dec            1            20             20
       2                                                                                                                                                     0
       3                                                                                                                                                     0
       4                                                                                                                                                     0
       5                                                                                                                                                     0
       6                                                                                                                                                     0
       7                                                                                                                                                     0
       8                                                                                                                                                     0
       9                                                                                                                                                     0
      10                                                                                                                                                     0
      11                                                                                                                                                     0
      12                                                                                                                                                     0
      13                                                                                                                                                     0
      14                                                                                                                                                     0
      15                                                                                                                                                     0
                                                                                                                        TOTAL                20             20

                                              OUTREACH ACTIVITIES
                                                 Number of
                                               Organizations                              Outreach
                    Organization to which                      Description of                               Date of
     No.                                       Represented at                           Location (City,
                     Outreach Provided                            Outreach                                 Outreach
                                                 Outreach                                   State)
                                                  Session
      1
      2
      3
      4
      5
      6
      7
      8
      9
      10

                                                                                                                                     DOT OIG Monthly Report.xls Page 1
